OIG Investigative Reports,  Orlando, FL.  June 13, 2013 - Former President Of Galiano Career Academy Agrees To Plead Guilty To Theft Of Federal Funds, Obstruction, And Aggravated Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT of FLORIDA
NEWS
Former President Of Galiano Career Academy Agrees To Plead Guilty To Theft Of Federal Funds, Obstruction, And Aggravated Identity Theft
FOR IMMEDIATE RELEASE
June 13, 2013
Orlando, FL - United States Attorney Robert E. O'Neill announces that Michael Gagliano (49, Sanford) has agreed to plead guilty to theft of government property, obstruction of a federal audit, and aggravated identity theft. He faces a maximum sentence of 10 years in federal prison for the theft of government property charge, up to five years in prison for the obstruction charge, and a mandatory minimum term of 2 years in prison, which must be served consecutive to his sentence for any of the other underlying offenses. The information also notifies Galiano that the United States intends to seek a money judgment in the amount of $2,105,761.00, which are alleged to be traceable to proceeds of the offenses. Gagliano was charged by information on June 12, 2013.
According to court documents, Galiano Career Academy, Inc. (GCA), located in Altamonte Springs, was a for-profit trade school, offering career programs such as Medical Assistant, Medical Billing and Coding, Pharmacy Technician, Travel Counselor, and Travel and Tourism Specialist. Gagliano was GCA's President and School Director. GCA was approved by the United States Department of Education (DOE) to administer Federal Student Assistance (FSA) programs, including the Federal Family Education Loan Program (FFEL) and the Federal Pell Grant program, which offered assistance to eligible students participating in post-secondary education at eligible institutions. GCA also received financial assistance for job training from Workforce Central Florida (WCF), a permanent placement agency, helping employers connect with job seekers each year in the central Florida area.
Gagliano used Columbus Academy, a high school "diploma mill" owned and operated by his wife, to make students eligible for FSA when they otherwise would not have been qualified. The GCA students who "graduated" from Columbus Academy were not eligible to receive the federal funds since these students did not receive a real high school education. From July 2007 through July 2010, 176 ineligible students enrolled at GCA through Columbus Academy received $1,221,878.00 in Direct Student Loan funds and $715,708.00 in Pell grant funds. Additionally, GCA received federal funds from the United States Department of Labor and WCF for ineligible students who attended GCA. As a result, GCA unlawfully received $168,175.00 of funds for unqualified students.
On July 13, 2009, the DOE Office of Federal Student Aid conducted a program review of GCA. The review was conducted to assess GCA's administration of the financial aid programs in which it participated. During the program review Gagliano tampered with student records. The investigation also revealed that GCA/Gagliano electronically submitted the name and social security number of a student to the DOE in order to obtain loan funds on her behalf, well after she stopped attending GCA. Gagliano falsified the student's attendance records to indicate that she was in attendance at GCA.
An information is merely a formal charge that a defendant has committed a violation of the federal criminal laws, and every defendant is presumed innocent unless, and until, proven guilty.
This case was investigated by United States Department of Education, Office of Inspector General and the United States Department of Labor, Office of Labor Racketeering and Fraud Investigation. It will be prosecuted by Assistant United States Attorney David Haas.
Top
Printable view
Last Modified: 06/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov